IN THE

SUPREME COURT OF THE UNITED STATES

LYUDMILA LERNER — PETITIONER
vs.
STANLEY COWEN - RESPONDENT(S)

PROOF OF SERVICE

, LEON OZERAN ESQ, do swear or declare that on this date,

7 [1 /2020, as required by Supreme Court Rule 29, I have served the enclosed:
PETITION FOR WRIT TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.

The names and addresses of those served are as follows:

Kent T. Brandmeyer, Esq. kbrandmeyer@lawbrandmeyer.com
Elizabeth A. Evans, Esq. eevans@lawbrandmeyer.com
Bryan Misshore Esq. bmisshore@lawbrandmeyer.com
LAW+BRANDMEYER, LLP

2 North Lake Av. Suite 820

Pasadena, CA 91101

Attorneys for Defendant, Stanley Z. Cowen, M.D

 

 

I declare under penalty of perjury that the foregoing is true and correct.

 

Executed on Ze 4/ 2020

Ee

(Signature)
